No.

IN THE
SUPREME COURT OF THE UNITED STATES

STEPHRET R. HARVEY
PETITIONER
V.
WARDEN JASON KENT, et al.
RESPONDENT

PROOF OF SERVICE
I, Stephret R. Harvey, do declare that on this date, September 27, 2021, as
required by Supreme Court Rule 291 have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid or by delivery to a third party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Jason Rogers Williams
District Attorney for Orleans Parish, Louisiana
916 S. White St.
New Orleans, La 70119
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 20, 2021.

4

IL

^tephret R. Harvey
11

